           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   ADMINISTRATIVE COSTS CLAIMED
     BY THE KANSAS DISABILITY
     DETERMINATION SERVICES

    September 2010   A-07-09-19093




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                          SOCIAL SECURITY
MEMORANDUM

Date:      September 28, 2010                                                               Refer To:

To:        Michael W. Grochowski
           Regional Commissioner
            Kansas City

From:      Inspector General

Subject:   Administrative Costs Claimed by the Kansas Disability Determination Services
           (A-07-09-19093)


           OBJ ECTIVES
           Our objectives were to evaluate the Kansas Disability Determination Services’
           (KS-DDS) internal controls over the accounting and reporting of administrative costs,
           determine whether costs KS-DDS claimed were allowable and properly allocated and
           funds were properly drawn, and assess limited areas of the general security controls
           environment. Our audit included the administrative costs claimed by the KS-DDS
           during Federal Fiscal Years (FY) 2007 and 2008.

           BACKGROUND
           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act (Act), provides benefits to wage earners and their families in the event the wage
           earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, provides payments to financially needy
           individuals who are aged, blind, and/or disabled.

           The Social Security Administration (SSA) is responsible for implementing policies for the
           development of disability claims under the DI and SSI programs. Disability
           determination services (DDS) in each State and other responsible jurisdictions perform
           determinations under both DI and SSI. Such determinations must be performed in
           accordance with Federal law and underlying regulations.1 In carrying out its obligation,
           each DDS is responsible for determining claimants’ disabilities and ensuring adequate
           evidence is available to support its determinations. To assist in making proper disability


           1
            Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c see also 20 C.F.R. §§ 404.1601 et
           seq. and 416.1001 et seq.
Page 2 – Michael W. Grochowski

determinations, each DDS is authorized to purchase medical examinations, X rays, and
laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s (Treasury) Automated Standard Application for Payments
(ASAP) system to pay for program expenditures. Funds drawn down must comply with
Federal regulations2 and intergovernmental agreements entered into by Treasury and
States under the Cash Management Improvement Act of 1990. 3

An advance or reimbursement for costs under the program must comply with Office of
Management and Budget Circular A-87, Cost Principles for State, Local, and Indian
Tribal Governments. At the end of each quarter of the FY, each DDS is required to
submit a State Agency Report of Obligations for SSA Disability Programs (SSA-4513) to
account for program disbursements and unliquidated obligations.4 The SSA-4513
reports expenditures and unliquidated obligations for Personnel Service Costs, Medical
Costs, Indirect Costs, and All Other Non-personnel Costs.5

The Kansas Rehabilitation Services (KRS) is the KS-DDS’ parent agency. KRS is a
component within the Kansas Department of Social and Rehabilitation Services
(KS-SRS). KS-DDS is located in Topeka, Kansas.

RESULTS OF REVIEW
With the exception of cash management, KS-DDS' internal controls over the accounting
and reporting of administrative costs were adequate to ensure costs claimed were
allowable and properly allocated. With regard to cash management, we found that KS-
SRS drew $331,553 more from the KS-DDS’ FY 2008 Treasury ASAP account than the
KS-DDS’ actual expenditures reported on the FY 2008 Form SSA-4513. We also found
KS-DDS did not maintain an accurate inventory of SSA-purchased computer
equipment. Regarding general security controls, we found KS-DDS’ security plan did
not contain all essential information required by SSA’s policies.




2
    31 C.F.R. § 205.1 et seq.
3
    Pub. L. No. 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335 6501, and 6503 (1990).
4
  SSA, Program Operations Manual System (POMS), DI 39506.201 and 202. POMS, DI 39506.200 B.4
provides, in part, that “Unliquidated obligations represent obligations for which payment has not been
made. Unpaid obligations are considered unliquidated whether or not the goods or services have been
received.”
5
    SSA, POMS, DI 39506.201 and 202.
Page 3 – Michael W. Grochowski

CASH MANAGEMENT

KS-SRS drew $331,553 more from KS-DDS’ FY 2008 Treasury ASAP account than KS-
DDS’ actual expenditures reported on the FY 2008 Form SSA-4513. 6 This occurred
because KS-SRS did not have procedures to ensure funds drawn from the
FY 2008 ASAP account were used to pay only FY 2008 expenditures. Instead, KS-SRS
stated that it used the $331,553 to pay KS-DDS expenditures for subsequent FYs. 7

For each FY, State DDSs are assigned an account in the ASAP system. SSA is
responsible for establishing, maintaining, and funding DDS accounts in the ASAP
system. Cash draws made from an ASAP account are to reimburse DDSs for
expenditures incurred during the same FY as the ASAP account’s FY.

Each day, KS-SRS determined KS-DDS’ cash draw needs by reviewing KS-DDS’
revenue and expenditure amounts. If KS-DDS’ total expenditures exceeded total
revenue, a cash draw was made. However, KS-SRS did not use the appropriate FY
ASAP account for the draws since it did not identify these expenditures by FY. Instead,
the cash draw was generally made from the oldest FY ASAP account that still had funds
available, even though KS-SRS had not determined whether the expenditures related to
that or a subsequent period.

Before closing a FY, KS-SRS adjusted the cash draw amount in the FY ASAP account
to reflect actual expenditures reported on the final Form SSA-4513. To adjust the cash
draw down, KS-SRS transferred funds between FY ASAP accounts. Therefore, until
the FY closeouts were completed, it is typical for KS-DDS’ FY ASAP accounts to reflect
cash draw amounts that do not equal actual expenditures.

KS-SRS’ cash draw procedures were not in accordance with a Federal regulation,
which provides, in part, that an appropriation or fund limited for obligation to a definite
period is available only to pay expenses properly incurred during that period. 8 In
addition, the Act requires that all money paid to the State under section 221 of the Act
(Disability Determinations) be used solely for the purposes for which it is paid, and any
money so paid that is not used for such purposes shall be returned to Treasury for



6
 We also identified this issue during an October 2002 review, Audit of the Administrative Costs Claimed
by the Kansas Disability Determination Services (A-07-02-22003).
7
  Based on the expenditures reported on the FY 2007 Form SSA-4513 dated June 17, 2009, KS-SRS
drew $256,639 more from KS-DDS’ FY 2007 Treasury ASAP account than KS-DDS’ actual expenditures.
Of this amount, $253,878 was incorrectly drawn because of expenditure reporting errors according to KS-
SRS (see the Other Matters section of this report). The remaining $2,761 was used to pay expenditures
for subsequent FYs according to KS-SRS. On November 9, 2009, KS-SRS refunded the $256,639 to
SSA. Therefore, we are not recommending corrective action related to cash draws for FY 2007.
8
    31 U.S.C. § 1502(a).
Page 4 – Michael W. Grochowski

deposit in the Trust Funds. 9 In this instance, funds were provided for disability
determinations conducted during a specified period of time but were used for another
period.

We recommend that the Regional Commissioner ensure KS-SRS adjusts all KS-DDS
ASAP account balances to reflect actual expenditures during the same FY as the
account’s FY. If the adjustments identify cash draws in excess of actual expenditures,
instruct KS-SRS to return the excess funds to Treasury. We also recommend that the
Regional Commissioner direct KS-SRS to establish adequate controls to ensure that
cash draws made from an ASAP account are for KS-DDS’ expenditures incurred for the
same FY as the account’s FY.

INVENTORY CONTROLS

The KS-DDS did not maintain an accurate inventory of SSA-purchased computer
equipment. Specifically, the inventory records did not include all information required by
SSA. 10 According to SSA instructions, the inventory listing should include the following.

      1.   Description
      2.   Source of funds used to purchase (for example, State vs. Federal)
      3.   Unit cost (applicable for State purchases only)
      4.   Inventory or serial number
      5.   Date purchased
      6.   Physical location, including building address and room or floor location

The DDS inventory listing did not include the following required elements – the source
of funds used to purchase the computer equipment and the date the equipment was
purchased. In addition, we identified incorrect and missing serial numbers and incorrect
physical locations for several equipment items on the inventory listing. We recommend
the Regional Commissioner instruct KS-DDS to track SSA-purchased computer
equipment with an inventory system that complies with SSA policies.

INCOMP LETE S ECURITY P LAN

KS-DDS’ security plan did not contain all information required by SSA policy. The KS-
DDS security plan was missing essential information regarding Physical Security,
Violation Reports and Resolution, Continuity of Operations, and Disaster Recovery.
Because of the sensitive nature of the security plan information, we are not identifying
the missing essential information in this report. Rather, the missing essential
information was provided to SSA and KS-SRS separate from this report.




9
    Social Security Act § 221(f), 42 U.S.C. § 421(f).
10
     SSA, POMS, DI 39530.020 B.1.
Page 5 – Michael W. Grochowski

A delay in creating a complete security plan could result in a longer recovery period
following a catastrophic event. We recommend the Regional Commissioner instruct the
KS-DDS to complete a security plan meeting SSA requirements timely.

CONCLUSION AND RECOMMENDATIONS
With the exception of cash management, KS-DDS' internal controls over the accounting
and reporting of administrative costs were adequate to ensure costs claimed were
allowable and properly allocated. With regard to cash management, we found that KS-
SRS drew $331,553 more from the KS-DDS’ FY 2008 Treasury ASAP account than KS-
DDS’ actual expenditures reported on the FY 2008 Form SSA-4513. We also found
that KS-DDS did not maintain an accurate inventory of SSA-purchased computer
equipment, and KS-DDS’ security plan did not contain all information required by SSA’s
policies. Accordingly, we recommend the SSA Regional Commissioner:

1. Ensure KS-SRS adjusts all KS-DDS ASAP account balances to reflect actual
   expenditures for the same FY as the account’s FY. If the adjustments identify cash
   draws in excess of actual expenditures, instruct KS-SRS to return the excess funds
   to Treasury.

2. Direct KS-SRS to establish controls that ensure cash draws made from an ASAP
   account are for KS-DDS’ expenditures incurred during the same FY as the account’s
   FY.

3. Instruct KS-DDS to track SSA-purchased computer equipment with an inventory
   system that complies with SSA policies.

4. Instruct KS-DDS to complete a security plan meeting SSA requirements timely.

AGENCY COMMENTS
SSA and KS-SRS agreed with our recommendations (see Appendices C and D).

OTHER MATTERS
To conduct our audit, we requested that KS-SRS provide electronic records to support
(1) KS-DDS’ FY 2007 expenditures reported on the January 22, 2009 Form SSA-4513
and (2) KS-DDS’ FY 2008 expenditures reported on the April 21, 2009 Form
SSA-4513. 11 In preparing the requested electronic records, KS-SRS reported that it
had overstated KS-DDS’ FY 2007 expenditures reported on the Form SSA-4513 by
$253,878. KS-SRS attributed the overstatement of expenditures to various reporting
errors.

11
  For each FY where unliquidated obligations remain, the State agency is responsible for preparing a
Form SSA-4513 quarterly and submitting the form(s) to SSA’s Central Office. POMS, DI 39506.210 A.
and POMS, DI 39506.202.
Page 6 – Michael W. Grochowski

To resolve the overstatement, KS-SRS refunded $253,878 to SSA. In addition,
KS-SRS revised the Form SSA-4513 for FY 2007 to reflect the correct expenditure
amount. For our audit, we reviewed the expenditures reported on the revised Form
SSA-4513 for FY 2007 dated June 17, 2009.

The electronic records provided by KS-SRS supported KS-DDS’ FY 2008 expenditures
reported on the April 21, 2009 Form SSA-4513. Therefore, we believe the
overstatement of the KS-DDS’ FY 2007 expenditures was due to unintentional reporting
errors as opposed to a systemic weakness in expenditure reporting. Therefore, we are
not making a recommendation.




                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – Parent Agency Comment
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms
Act           Social Security Act
ASAP          Automated Standard Application for Payments
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DI            Disability Insurance
FY            Fiscal Year
KRS           Kansas Rehabilitation Services
KS-DDS        Kansas Disability Determination Services
KS-SRS        Kansas Department of Social and Rehabilitation Services
OIG           Office of the Inspector General
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSA-4513      State Agency Report of Obligations for SSA Disability Programs
SSI           Supplemental Security Income
Treasury      Department of the Treasury
U.S.C.        United States Code
                                                                     Appendix B

Scope and Methodology
S COP E
To achieve our objective, we:

•   Reviewed applicable Federal laws and regulations, pertinent parts of the Social
    Security Administration’s (SSA) Program Operations Manual System, and other
    criteria relevant to administrative costs claimed by the Kansas Disability
    Determination Services (KS-DDS) and the drawdown of SSA program
    appropriations.

•   Interviewed staff at the Kansas Department of Social and Rehabilitative Services
    (KS-SRS) and the KS-DDS.

•   Reviewed State policies and procedures related to Personnel, Medical Services,
    Indirect, and All Other Non-personnel Costs.

•   Evaluated, tested, and documented internal controls regarding accounting, financial
    reporting, and cash management activities.

•   Reconciled State accounting records to the administrative costs reported by KS-
    DDS on the State Agency Report of Obligations for SSA Disability Programs (SSA-
    4513) for Federal Fiscal Years (FY) 2007 and 2008.

•   Examined specific administrative expenditures (Personnel, Medical Services, and All
    Other Non-personnel Costs) incurred and claimed by KS-DDS for FYs 2007 and
    2008 on the SSA-4513. We used statistical sampling to select expenditures to test
    for support of the Medical Services and All Other Non-personnel Costs, as
    discussed below.

•   Examined the indirect costs claimed by KS-DDS for FY 2008.

•   Compared the amount of SSA funds drawn to support program operations to the
    expenditures reported on the SSA-4513.

•   Determined whether selected funds from canceled warrants were properly returned
    to SSA.

•   Determined whether unliquidated obligations were properly supported.

•   Reviewed KS-DDS’ general security controls.


                                          B-1
•   Reviewed Office of Management and Budget guidance related to safeguarding
    personally identifiable information.

We determined the data provided by KS-SRS and KS-DDS and used in our audit were
sufficiently reliable to achieve our audit objectives. We assessed the reliability of the
data by reconciling them with the costs claimed on the SSA-4513. We also conducted
detailed audit testing on selected data elements in the electronic data files.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. We conducted fieldwork from August 2009 through June 2010.

METHODOLOGY
S AMP LING METHODOLOGY

The sampling methodology encompassed the four general areas of costs reported on
the SSA-4513: (1) Personnel, (2) Medical Services, (3) Indirect, and (4) All Other Non-
personnel Costs. We obtained a data extract of all costs and the associated invoices
for FYs 2007 and 2008 for use in statistical sampling. We obtained this from the
accounting systems used in preparing the SSA-4513.

Personnel Costs

We randomly selected 1 pay period, with a pay period end date of December 15, 2007,
for review. We then selected a random sample of 50 regular employees for review and
testing of the payroll records. For medical consultant costs, we also selected the pay
period month of December 2007 (medical consultants are paid monthly) for review. We
then selected all 28 medical consultants for review and testing of the payroll records.

Medical Services Costs

We sampled 100 items (50 items each from of FYs 2007 and 2008) using a stratified
random sample of medical costs based on the proportion of medical evidence of record
and consultative examination costs to the total medical costs claimed.




                                           B-2
Indirect Costs

We reviewed all 4 quarters of FY 2008 to ensure pools were allocated in accordance
with the approved State FY 2008 cost allocation plan. We determined the allocation
methods were reasonable for the type of expense being allocated. In addition, we
reviewed various transactions from the fourth quarter of FY 2008. We determined the
transactions were accurate, adequately documented, and properly categorized in the
various cost pools.

All Other Non-personnel Costs

We sampled 104 items (52 expenditures from FY 2007 and 52 from FY 2008) using a
stratified random sample. The random sample was based on the proportion of costs in
each of the cost categories to the total costs claimed.




                                         B-3
                  Appendix C

Agency Comments
September 08, 2010


TO         :   Office of the Inspector General

FROM       :   Deputy Commissioner for Operations

SUBJECT:       DCO REPLY: Administrative Costs Claimed by the Kansas Disability
               Determination Services

Thank you for the opportunity to provide input on the draft report of the administrative cost audit
conducted at the Kansas DDS. Overall, we are pleased with the results of the audit which show
the Kansas DDS maintains strong control of their fiscal processes. We agree with the four
recommendations in the draft, and offer the following updates since the draft report was released.

Recommendation One

Ensure KS-SRS adjusts all KS-DDS ASAP account balances to reflect actual expenditures for
the same FY as the account’s FY. If the adjustments identify cash draws in excess of actual
expenditures, instruct KS-SRS to return the excess funds to Treasury.

Response – We agree with this finding. Kansas SRS is changing their policy and will adjust all
KS-DDS ASAP account balances to reflect actual expenditures for the same FY as the account’s
FY. If the adjustments identify cash draws in excess of actual expenditures, KS-SRS will return
the excess funds to Treasury.

Recommendation Two

Direct KS SRS to establish controls that ensure cash draws made from an ASAP account are for
KS-DDS’ expenditures incurred during the same FY as the account’s FY.

Response – We agree with the audit findings. Kansas SRS is changing their policy of drawing
funds from the oldest grant year until funding is exhausted. They are currently evaluating past
year expenditures to determine a date to cut-over to the new grant year. The region will follow-
up with SRS on a quarterly basis until their evaluation of a cut-over date is complete, and the
region will monitor the quarterly 4513s for compliance.




                                                 C-1
Recommendation 3

Instruct KS-DDS to track SSA-purchased computer equipment with an inventory system that
complies with SSA policies.

Response - The Kansas DDS is modifying their computer inventory to meet SSA requirements.
The regional office will follow-up with the DDS in 30 days to ensure the inventory is updated
and that it complies with SSA standards.

Recommendation 4

Instruct KS-DDS to complete a security plan meeting SSA requirements timely.

Response - The Kansas DDS has updated their security plan to contain all information required
by SSA policy. A copy of the updated security plan is available from the Kansas City Center for
Disability Programs upon request.

Thank you for the opportunity to provide input on the draft report.

Staff with questions should contact Eric Ryan, Disability Program Administrator, at (816) 936-
5685.

                            Roger McDonnell for Mary Glenn-Croft




                                               C-2
                         Appendix D

Parent Agency Comments
D-1
D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division

   Kenneth Bennett, IT Specialist, Kansas City Audit Division

Acknowledgments

In addition to those named above:

   Nicholas Moore, Auditor

   Karis Crane, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-07-09-19093.
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform


Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
